No.
In the Supreme Court of the Gnited States

Amato v. United States of America
AFFIDAVIT OF SERVICE

I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct. On this, the 17th day of October,
2019, I filed forty (40) copies of the foregoing petition with the United States
Supreme Court electronically and via UPS Ground Transportation, and served via
electronic mail and three (8) copies of the same, via UPS Ground Transportation, to
the following:

Solicitor General of the United States
DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001

Emily Berger

Andrey Spektor

Assistant U.S. Attorney

UNITED STATES ATTORNEY'S OFFICE FOR
THE EASTERN DISTRICT OF NEW YORK

271 Cadman Plaza East

Brooklyn, NY 11201

Counsel to Respondent

Karen R. Taylor

Gibson Moore Appellate Services, LLC
P.O. Box 1460 (23218)

Richmond, VA 23219

(804) 249-7770 — Telephone

(804) 249-7771 — Facsimile
karen@gibsonmoore.net
For:

David I. Schoen
Counsel of Record
DAVID I. SCHOEN,

ATTORNEY AT LAW
2800 Zelda Road, Suite 100-6
Montgomery, AL 36106
(334) 395-6611
dschoen593@aol.com

Counsel for Petitioner

Signed and subscribed before me on this the 17th day of October, 2019.

   

Bradford

        
   
    

Bradford E. Moore
NOTARY PUBLIC _
Commonwealth of Virginia

Reg. #7241026

Commission Exp. 4/30/2021
